No. 20-1008

Supreme Court of the Uniteh States

STATE FARM LIFE INSURANCE COMPANY,
Petitioner,

 

 

v.

MICHAEL G. VocrT,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I, David W. Ogden, a member of the
bar of this Court, certify that the accompanying Motion for Leave to File Brief as
Amicus Curiae and Brief of the American Council of Life Insurers as Amicus Curiae in
Support of Petitioner contains 3,724 words, excluding the parts of the document that
are exempted by Supreme Court Rule 33.1(d).

Executed on February 26, 2021.

Luk (Oat Sos?

AVID W. OGDEN
WILMER CUTLER PICKERING
HALE AND DoRR LLP
1875 Pennsylvania Avenue NW
Washington, DC 20006
(202) 663-6000
david.ogden@wilmerhale.com
